                                   Office of Inspector General
                                Corporation for National and
                                                   Community Service



                              AUDIT OF

         u.s. SOCCER FEDERATION FOUNDATION'S
          GRANT FINANCIAL MANAGEMENT SYSTEM


                 OIG REPORT NUMBER            12-03




                                                        NATIONAL&!
                                                        COMMUNITY
                                                       SERVICE .......~



                   1201 New York Ave., NW
                          Suite 830
                    Washington, DC 20525

                         (202) 606-9390

This report was issued to Corporation management on February 10, 2012. Under the laws
and regulations governing audit follow-up, the Corporation is to make final management
decisions on the report's findings and recommendations no later than August 10, 2012,
and complete its corrective actions by February 10, 2013. Consequently, the reported
findings do not necessarily represent the final resolution of the issues presented.
                                   Office   or Inspector General

                                 NATIoY"JAL
                                 COMMUNITY
                                            &
                                 SERVICE ..............
                                       February 10, 2012


TO:           Paul Carttar
              Director, Social Innovation Fund

              Margaret Rosenberry
              Director, Office of Grants Management

FROM:         Stuart Axenfeld lsi
              Assistant Inspector General for Audit

SUBJECT:      OIG Report 12-03, Audit of U. S. Soccer Federation Foundation's Grant Financial
              Management System

Attached is the final report for the above-noted audit, which was performed by OIG staff. This
audit was conducted in accordance with generally accepted government auditing standards.

Under the Corporation's audit resolution policy, a final management decision on the findings and
recommendations in this report is due by August 10, 2012. Notice of final action is due by
February 10, 2013.

A recent amendment to the Government Auditing Standards (2011 revision , Section 7.44)
recommends that OIG audit reports also be distributed to the person(s) charged with
governance of the audited entity. Accordingly, we have provided the Chairman of the Board of
USSFF with a copy of this report.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Ronald
Huritz, Audit Manager, at (202) 606-9355.

Attachment


cc:    Ed Foster-Simeon, Chief Executive Officer, USSFF
       Alan Rothenberg , Chairman of the Board, USSFF
       Amy Horner, Chief Operating Officer, LTBD, PC
       William Anderson, Chief Financial Officer, CNCS
       Rocco Gaudio, Deputy Chief Financial Officer, Grants & Field Financial Management
       Claire Moreno, Senior Grants OfficerlAudit Liaison, CNCS




                   1201 New York Avenue, NW  *          *
                                                Suite 830  Washington, DC 20525
                      202-606-9390  *Hotline: 800-452-8210* www.cncsoig.gov

                        Senior Corps * AmeriCorps * Learn and Serve America
                                           OFFICE OF INSPECTOR GENERAL
                                CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                  AUDIT OF U.S. SOCCER FEDERATION FOUNDATION'S
                                      GRANT FINANCIAL MANAGEMENT SYSTEM



                                                              Table of Contents

   CONTENTS                                                                                                                                      PAGE

    Executive Summary ..... .. ...... .. ..... ..... ............................. ... ................ ....... ..... ... ...... .. .... .. 2

    Summary of Results .......... ................ ..... .. .. ... ................. .. .. .. ............... ........... ....... .. ...... 2

    Results of Audit .. .. ... ....................................... ......... ..................... .... .... .. ............ .... ....... 3

    Audit Objective, Scope, and Methodology .... ..... .... ..... .... .. ..... .... .......... ..... .. ...... ... ... .. ..... 6

    Background ..... .... ..... ....................... ... .... ...... ............ ....................... ..... ..... ..... ... ....... ...... 6

    Exit Conference .... ..... .... .. ... ..... .... ....... ..... ............ .. ... ... .... .. .... .... .. ... .. .. ..................... ... .... 7



Appendices:

Appendix A - US Soccer Federation Foundation's Response to Draft Report

Appendix B - Corporation for National and Community Service's Response to Draft Report



                                                             Table of Acronyms

                                     C.F.R.                  Code of Federal Regulations
                                     FY                      Fiscal Year
                                     OIG                     Office of Inspector General
                                     OMB                     Office of Management and Budget
                                     PMS                     Payment Management System
                                     SfS                     Soccer for Success
                                     SIF                     Social Innovation Fund
                                     U.S.C.                  United States Code
                                     USSFF                   US Soccer Federation Foundation
                                           EXECUTIVE SUMMARY



The Office of Inspector General (OIG), Corporation for National and Community Service (Corporation),
performed an audit of the Social Innovation Fund (SIF) issue-based grant awarded (Grant No.
11 SIHDC001) to the US Soccer Federation Foundation (USSFF). The purpose of the audit was to
determine whether USSFF's financial management system was in compliance with applicable laws,
regulations and grant provisions, and whether adequate internal controls were in place. The
Corporation awarded SIF grants for the first time in Fiscal Year (FY) 2010. The OIG conducted pre-
award financial management system reviews for selected FY 2010 SIF applicants. This SIF financial
management system audit was conducted from August 26 to November 28, 2011, after the grant had
been awarded, but before USSFF selected any sub-recipients or expended any grant funds.

This is USSFF's first grant from the Corporation and second Federal grant from any source. The SIF
grant awarded to USSFF will support the implementation and operations of Soccer for Success (SfS),
a no-cost, after-school, sports-based youth development program. The goal of SfS is to improve health
by arresting and reducing obesity through physical activity and nutrition education. A secondary
indirect goal of SfS is to improve social and academic outcomes. USSFF awards subgrants to 10 to
14 nationally selected organizations. It received unqualified opinions on its financial statement audits
for FYs 2010, 2009, and 2008. It did not meet the $500,000 Office of Management and Budget (OMB)
Circular A-133 audit threshold in any of those years.


SUMMARY OF RESULTS

We found that USSFF's policies and procedures should be updated to include the following areas:

1.   Monitoring both programmatic and financial operations of sub-recipients;
2.   Guidelines for Federal funds drawdowns;
3.   Determining reasonableness, allocability, and allowability of claimed costs; and
4.   Treating Federal and non-Federal transactions uniformly.

These topics are discussed in detail in the section entitled Results of Audit.

The OIG selected USSFF for audit shortly after it was selected as a SIF grantee, but before the grant
was funded. At the time the grant was awarded, USSFF had not preselected its sub-recipients. The
policies and procedures USSFF implements for monitoring sub-reCipients will be determined by the
selection process and the quality of its designated sub-reCipients.




                                                     2
RESULTS OF AUDIT

Finding 1. USSFF's written policies and procedures did not include sub-recipient monitoring.

During our site visit, USSFF's written policies and procedures did not include procedures for sub-
recipient monitoring. However, grantee staff was aware of the necessity of monitoring sub-recipients
and was developing monitoring policies.

Criteria:

45 C.F.R. §2543.5, Subawards, states that "[u]nless sections of this Circular specifically exclude sub-
recipients from coverage, the provisions of this Circular shall be applied to sub-recipients performing
work under awards if such sub-recipients are institutions of higher education, hospitals or other non-
profit organizations. State and local government sub-recipients are subject to the provisions of
regulations implementing the grants management common rule, 'Uniform Administrative Requirements
for Grants and Cooperative Agreements to State and Local Governments,' published at 53 FR 8034."

45 C.F.R. §2543.51, Monitoring and reporting program performance, states that "[r]ecipients are
responsible for managing and monitoring each project, program, subaward, function or activity
supported by the award."

USSFF had not finalized its sub-recipient selection process at the time of our audit. The selection
criteria will influence the level of monitoring. Stricter criteria should lead to the selection of sub-
recipients having a higher level of competence. Also, selecting highly competent sub-recipients could
result in a reduction in required monitoring. USSFF recognizes the importance of monitoring and
plans to include both program and financial personnel on its monitoring team.

The absence of policies and procedures for monitoring program management, financial management
systems and financial information received from sub-recipients may result in USSFF receiving
erroneous, inconsistent or incompatible information. USSFF would be unable to prepare verifiably
accurate reports. In addition, receiving inconsistent or incompatible information from the sub-
recipients may result in USSFF being unable to consolidate the information into a usable report.

Recommendation:

We recommend that the Corporation ensures that USSFF develop and implement policies and
procedures for monitoring the program management, financial management system, and financial
information received from its sub-recipients.

Auditee Comments:

The Foundation has updated its Accounting Policy and Procedures Manual to include language that
Federal funds awarded to a subgrantee will be monitored on a quarterly basis by the Senior
Accountant and Director of Finance. When funds are initially awarded, subgrantee accounting staff will
be provided with training on the appropriate accounting procedures. Documentation of costs submitted
by subgrantees to the Foundation will be reviewed by the Director of Programs and Grants and the
Director of Finance prior to being reimbursed and included in the quarterly Federal Financial Report.

OIG Comments:

This action is responsive to our finding and recommendation. The Corporation should verify that the
added language has been included in USSFF's Accounting Policy and Procedures Manual.

                                                  3
Finding 2. USSFF's written policy and procedures did not include guidelines to determine the
reasonableness, allocability and allowability of costs charged to the grant.

At the time of our site visit, USSFF did not have written policies and procedures in place to determine
the reasonableness, allocability and allowability of claimed costs, in accordance with the provisions of
the applicable Federal cost principles and the terms and conditions of the award. USSFF staff was in
the process of reviewing and updating the grantee's policies and procedures to comply with Federal
cost principles.

Criteria:

45 C.F.R. §2543.21 (b)(6) Standards for financial management systems, subsection (b)(6) states that
U[r]ecipients' financial management systems shall provide for the following: ... [w]ritten procedures for
determining the reasonableness, allocability and allowability of costs in accordance with the provisions
of the applicable Federal cost principles and the terms and conditions of the award."

USSFF's current policies and procedures governing its financial management system have general
safeguards and internal controls in place to promote the efficient use of funds. However, USSFF was
not aware of the requirement to have a written policy and procedures to determine the
reasonableness, allocability and allowability of costs.

Without clearly communicated guidelines for determining the reasonableness, allocability and
allowability of claimed costs, costs may inadvertently be charged to the grant that are not in
compliance with Federal cost principles and the terms and conditions of the award.

Recommendation:

The Corporation should ensure that USSFF develops and implements written policies and procedures
that comply with 45 C.F.R. §2543.21, Standards for financial management systems.

Auditee Comments:

The Foundation amended its Federal Funds policy to require that all direct costs have approval from
the Director of Programs and Grants, with verification by the Staff Accountant, to ensure expenses are
reasonable, allocable and allowable according to the grant agreement and Federal cost principles.

OIG comments:

The grantee's response addresses its direct costs but is silent on the allocability of indirect costs. We
recommend that the Corporation verify that USSFF's revised policy includes language that specifies its
allocation methodology, particularly if USSFF does not have an approved indirect cost allocation
agreement.


Finding 3. USSFF's written pOlicies and procedures did not include guidelines for the
drawdown of funds from the Payment Management System (PMS).

At the time of our site visit, USSFF did not have a written policy or procedures in place to minimize the
time elapsing between the grantee's drawdown of funds from PMS and its payment of grant
expenditures. Grantee staff was in process of reviewing and updating its policies and procedures to
comply with Federal cost principles.


                                                    4
Criteria:

45 C.F.R. §2543.21 (b)(5), Standards for financial management systems, subsection (b)(5) states that
"[r]ecipients' financial management systems shall provide for the following : [w]ritten procedures to
minimize the time elapsing between the transfer of funds to the recipient from the U.S. Treasury and
the issuance or redemption of checks, warrants or payments by other means for program purposes by
the recipient."

45 C.F.R. §2543.22 (b)(1), Payment, states that "[r]ecipients are to be paid in advance, provided they
maintain or demonstrate the willingness to maintain: Written procedures that minimize the time lapsing
between the transfer of funds and disbursement by the recipient."

The grantee was addressing this issue during our audit. Without clearly communicated policies and
procedures, USSFF may draw down funds from PMS in excess of the amount needed to meet its
immediate cash needs.

Recommendation:

The Corporation should ensure that USSFF develops and implements written policies and procedures
that comply with 45 C.F.R. §2543.21, Standards for financial management systems, and 45 C.F.R.
§2543.22, Payment.

Auditee Comments:

The Foundation added language to its Federal Funds Policy stating it will draw funds from Federal
sources on a reimbursement basis. After the month-end closing process has been completed, the
Director of Finance will submit costs incurred during the month for payment through the Payment
Management System for reimbursement.

OIG Comments:

USSFF's response addresses our recommendation. The Corporation should verify that the added
language has been included in USSFF's Accounting Policy and Procedures Manual.


Finding 4. USSFF's written policies and procedures do not include guidelines for consistent
treatment of costs.

USSFF's written policies and procedures, as of the time of our site visit, did not include steps to ensure
that costs for both Federally-financed and other activities of the organization would be treated in a
consistent manner.

Criteria:

OMS Circular A-122, Uniform Administrative Requirements for Grants and Agreements with
Institutions of Higher Education, Hospitals, and other Non-Profit Organizations, Attachment A, General
Principles, Paragraph A.2, Factors affecting allowability of costs, states that "[t]o be allowable under an
award, costs must meet the following general criteria: [b]e consistent with policies and procedures that
apply uniformly to both federally-financed and other activities of the organization ... [b]e accorded
consistent treatment."

USSFF was not aware of the requirement that states costs will be consistent with policies and
procedures that apply uniformly to both Federally-financed and other activities of the organization, and
that all claimed costs will be accorded consistent treatment.
                                                    5
Without clearly communicated guidelines for the treatment of costs, USSFF may claim grant costs that
are deemed unallowable because non-Federally-financed costs are handled in a manner that is
inconsistent with the treatment of Federal costs.

Recommendation:

The Corporation should ensure that USSFF develops and implements policies and procedures that
comply with the consistent treatment provisions of OMB Circular A-122.

Auditee Comments:

In addition to the expanded language inserted in its Federal Funds Policy, stated in the response to
Finding 2 above, USSFF also updated its Accounting Policy and Procedures Manual to note that the
Staff Accountant will ensure that costs are consistent with similar expenses in other Foundation
departments and programs.

OIG Comments:

The grantee's response addresses our recommendation . The Corporation should verify that the added
language has been included in USSFF's Accounting Policy and Procedures Manual.


AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY

Our objectives were to determine whether: (1) USSFF has a financial management system that is in
compliance with applicable law, regulations, and grant provisions or terms and conditions; and (2) the
grantee's internal controls are effective.

The scope was limited to the review of USSFF's financial management system and related policies
and procedures to evaluate its ability to manage Corporation SIF grant funds, in accordance with the
requirements for Federal funds and objectives stated above.

Our procedures included collecting and reviewing appropriate audit documentation, and conducting
interviews of grantee staff and contractors, as warranted . We performed our audit in accordance with
audit standards generally accepted in the United States of America and generally accepted
government audit standards. The scope of this audit was limited to the inaugural FY 2010 SIF award
period, during which USSFF was identified by the Corporation as an awardee. We conducted our
fieldwork between August 26 and November 28, 2011.

BACKGROUND

The purpose of the Social Innovation Fund is to improve the lives of people in low-income communities
throughout the United States by increasing the impact and scale of innovative community-based
approaches that deliver results in three critical areas: youth development, economic opportunity and
healthy futures. The Social Innovation Fund is a vehicle to: (1) promote public and private investment
in community-based nonprofit organizations with promising approaches to critical challenges to
validate their impact and replicate and expand to serve more communities; (2) through the use of
appropriate evidence, identify additional effective approaches to addressing critical community
challenges and broadly share this knowledge; and (3) develop the grant-making infrastructure
necessary to support the work of social innovation in communities across the country.

In FY 2010, the Corporation awarded a limited number of Social Innovation Fund grants to grant-
making institutions, including USSFF, which are referred to as "intermediaries." The intermediaries are
required to match every Federal dollar of the grant award in cash. They identify and invest at least 80
                                                  6
percent of their Federal funds (plus identified cash matching funds) in portfolios of promising
community-based nonprofit organizations (subgrantees) working in low-income communities in one or
more of the issue areas noted above.


To qualify as a SIF intermediary, applicants must demonstrate:

    • A track record of selecting, investing, validating, supporting, and monitoring the replication and
      expansion of their subgrantees;
    • The capacity to conduct a competitive process for selecting innovative nonprofit community
      organizations with effective and potentially transformative approaches;
    • Expertise in one or more of the issue areas; and
    • Established relationships with stakeholders in one or more priority issue areas and/or specific
      geographic regions.

The USSFF was established in 1994 and serves as a charitable entity promoting soccer in the United
States. With support from donors, corporate partners, and youth development organizations, the
grantee has provided over $51 million in grants, financial support, and loans to programs and projects
in all 50 states. The community organizations selected as sub-recipients will receive training and
support from the grantee. By supporting the development of places to play, grow and learn, USSFF
works to ensure that children in underserved communities have access to soccer programs that
support their physical and personal development.

EXIT CONFERENCE

The contents of this report were discussed with USSFF management and the Corporation at an exit
conference held on November 28, 2011. Responses from USSFF and the Corporation are
summarized after each recommendation and included in their entirety in Appendices A and B,
respectively.

This report is intended solely for the information and use of the OIG, the Corporation, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.




Stuart Axenfeld, Assistant Inspector General for Audit
Office of Inspector General
Corporation for National and Community Service
February 10, 2012




                                                   7
            APPENDIX A

U.S. SOCCER FEDERATION FOUNDATION'S
    RESPONSE TO THE DRAFT REPORT
  WI
 SOCCER
FOUNDATION®
                      February 7,2012
Board 0/ Directors



 Alan Rothenberg
    Chairman            Ronald Huritz
    Brad Hays
                        OIG Audit Manager
Chairman Emeritus       Office of Inspector General
                        Corporation for National & Community Service
   Kevin Payne
  Vice Chairman
                        1201 New York Avenue, NW
                        Suite 830
 Charles Marshall       Washington, DC 20525
Treasurer/Secretary

                        Dear Mr. Huritz:

Glan/ranco Borroni      Below, please find the u.s. Soccer Foundation's formal response to the recent audit performed by your
                        office. Should you have any further questions or concerns, please do not hesitate to contact us. We are
  Jane Delgado
                        thrilled to have the opportunity to work with the Corporation for National & Community Service and look
  Enrico Gagfloti       forward to selecting our Sub-grantees and implementing our Soccer for Success program this fall!
   Don Garber
                        Finding 1: USSFF's written policy and procedures did not include sub-recipient monitoring.
   Sunil Gulatl
                       The Foundation has updated its Accounting Policy & Procedures Manual, Section XVIII - Federal Funds
    Brian Klein
                       Policy to include the following:
David Messersmith
                        E.        Sub-grantee / Sub-recipient Financial Data
 Donna E. Shalafa

 Juergen Sommer
                       In the occasion Federal Funds are awarded by the Foundation to a sub-grantee, those funds will be monitored
                       on a quarterly basis by the Senior Accountant and the Director of Finance. Upon initial award of the funds,
 Charles Stimson       the sub-grantee accounting personnel will be provided with training and procedures on the appropriate
                       accounting for funds . Deadlines will be established to coincide with the Federal Financial Reporting
  David Sutphen
                       deadlines. These are as follows:
  James Walsh

 Dana Weintraub
                              •       April 15
                              •       July 15
                              •       October 15
Ed Foster-Simeon              •       January 15
 President & CEO
                       Financials and appropriate documentation of costs must be submitted by the sub-grantee to the Foundation on
                       OT before these dates for the previous quarter. This documentation is reviewed by the Director of Programs
                       and Grants, as well as the Director of Finance, prior to submission for reimbursement and inclusion in the
                       quarterly FFR.


                       Finding 2: USSFF's written policy and procedures did not include guidelines to determine the
                       reasonableness, allocability and allow ability of costs charged to the grant.
                       The Foundation has updated its Accounting Policy & Procedures Manual, Section XVIII - Federal Funds
                       Policy to include the following:

                       C.         Federal Funds Disbursement
  Wi
 SOCCER
FOUNDAnO~
                      All direct costs - invoices, expense reimbursement, credit card receipts - submitted with Federal Funds
                      program codes must have approval from the Director of Programs and Grants. Prior to processing for
                      payment, the Staff Accountant will verify that approval, as well as review the expense incurred to ensure that
                      the expense is reasonable, allocable and allowable in accordance with the terms of the grant award/agreement
Boord 0/ Directors
                      and the Federal cost principles. The Staff Accountant will also ensure that costs are consistent with similar
                      expenses incurred in other programs or departments of the Foundation.
 Alan Rothenberg
    Chairman
                      Finding 3: USSFF's written policy and procedures did not include guidelines for the drawdown of
   Brad Hays          funds from the Payment Management System (PMS).
Chairman Emeritus
                      The Foundation has updated its Accounting Policy & Procedures Manual, Section XVIII - Federal Funds
   Kevin Payne
  Vice Chairman       Policy to include the following:

 Charles Marshall     D.      Federal Funds Draw
Treasurer/Secretory

                      The Foundation will draw funds from Federal sources on a reimbursement basis. After the month-end close
                      process has been completed and reviewed, the Director of Finance will submit costs incurred during the
Gian/ranca Barroni    month for payment through the appropriate PMS (or similarly named Federal draw system) for
  Jane Delgado        reimbursement.

  Enrico Gaglloti     Finding 4: USSFF's written policy and procedures do not include guidelines for consistent treatment of
   Don Garber
                      costs.

   Sunil Gulati       The Foundation has updated its Accounting Policy & Procedures Manual, Section XVIII - Federal Funds
                      Policy to include the following:
    Brian Klein

David Messersmith     c.      Fedel'al Funds Disbursement

 Donna E. Shalala     All direct costs - invoices, expense reimbursement, credit card receipts - submitted with Federal Funds
 Juergen Sommer       program codes must have approval from the Director of Programs and Grants. Prior to processing for
                      payment, the Staff Accountant wlll verify that approval, as well as review the expense incurred to ensure that
 Charles Stimson      the expense is reasonable, allocable and allowable in accordance with the terms of the grant awardiagreement
  David Sutphen
                      and the Federal cost principles. The Staff Accountant will also ensure that costs are consistent with similar
                      expenses incurred in other programs or departments of the Foundation.
  James Walsh
                      If you would like for us to expand or elaborate on any of our new procedures please do not hesitate to reach
 Dana Weintraub
                      out to me directly at 202-872-6657 or via email at efoster imeon(ci{ussoccerfoWldation.org

                      Sincerely,
Ed Foster,Simeon


                       ff#~
 President & CEO



                      Edward Foster-Simeon
                      President and CEO

                      Cc: Wylie Chen, Amy Homer, Rob Kaler
         APPENDIX B

CORPORATION FOR NATIONAL AND
    COMMUNITY SERVICE'S
RESPONSE TO THE DRlU'T REPORT
                               NATIONAL&:
                               COMMUNITY
                               SERVICE~

To:

From:

Date:

Subject:       Response to OIG Draft Review of Financial Systems of the U.S. Soccer
               Foundation


Thank you for the opportunity to review the OIG's draft report on its review of financial systems
of the Soccer Foundation, a new recipient of Federal grants funds under the Corporation's Social
Innovation Fund. We agree with the recommendations which identify the policies and
procedures the Soccer Foundation needs to implement to manage Federal grant funds.

The U.S. Soccer Foundation's response to your draft report also described the additions it has
made to its accounting policies and procedures to address all four of the report's
recommendations. The Corporation will conduct a site visit to the Foundation in February 2012
to conform the recommendations have been implemented.


Cc:     William Anderson, Chief Financial Officer
        Valerie Green, General Counsel
        John Gomperts, Director of AmeriCorps
